                                CLOSEOUT l?OR M91020004




    respectively). The complainant alleged that
                      a proposal submitted by a scientist
                  Assistant Professor in the
                 niversity. He explained that
    describing a methodology together and had used it in their joint and independent proposal
    submissions. He alleged that the text had been plagiarized by one of the PIS when he or she
    received a proposal containing the text for peer review.

                       the subjects' proposal was a resubmission of an earlier declined proposal
                      The original proposal and its resubmission had the same title. By comparing
    proposals submitted by the scientist or his colleague prior to the subjects' two proposals, OIG
I   identified passages that appeared to be identical or substantially similar to text in the
    methodology section of either the scientist's or the colleague's proposals OIG found that
    three of the four subjects had served individually as reviewers for proposals submitted by
    either the scientist or the colleague prior to the subjects' original proposal.

    OIG learned from the subjects that their proposal had been prepared in sections, and that each
    PI had been assigned the responsibility for writing the section on the techniques for which he
    or she would be responsible. Subject #2 said that she wrote the section containing the copied
    text, that she had reviewed two of the colleague's proposals and that she must have
    "inadvertently incorporated" some of the proposal text into her own section.

    OIG concluded that subjects 1, 3, and 4 were unaware that text had been copied from the
    colleague's proposal and that an investigation into subject #2's actions was required.
    Separately OIG received a second set of allegations that another NSF proposal on which




    OIG's investigation report and NSF's settlement agreement are attached and describe the
    actions taken by OIG and NSF in this case.

    cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                         Page 1 of 1
  REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                    SCIENCE AND ENGINEERING

                             SUMMARY
      The Office of Inspector General (OIG) has determined that Dr.
                                                               Ithe
uni;ersity) committed plagiarism on two occasions in proposals she
submitted to NSF.      OIG has further determined that, on each
occasion, the subject plagiarized material from proposals that had
been sent to her in confidence by NSF for merit review. These
conclusions are based on an investigation performed by the
subject's university.     OIG recommends that NSF find that the
subject committed misconduct and take the following actions as a
final disposition in this case. The subject should be told that
NSF has made a finding of misconduct and should receive a letter of
reprimand from the NSF Office of the Director. For a period of one
year (starting on the date of NSF's final adjudication of this
case), NSF should debar the subject from receiving federal grants
or, as an alternative, NSF should enter into a voluntary exclusion
agreement of one year with the subject beginning from the date of
the institution's final adjudication of the case. For one year
after the debarment (or voluntary exclusion) concludes, if the
subject is a principal or co-principal investigator on a proposal
submitted to NSF, NSF should require the subject to ensure that her
department chairperson has signed an assurance stating that, on the
basis of the chairperson's reading of the proposal and to the best
of the chairperson's knowledge, the proposal does not contain any
plagiarized material.     For one year after the debarment (or
voluntary exclusion) concludes, if the subject is a principal or
co-principal investigator on a proposal submitted to NSF, NSF
should require the subject to certify in writing that she has
recently reviewed the definition of misconduct in NSF's Misconduct
in Science and Engineering regulation, that the proposal is free of
any misconduct, and that the proposal has been reviewed as
described above. For a period of three years, the subject should
be prohibited from serving as a mail or panel reviewer or as a
member of a Committee of Visitors.
                          OIG'S   INQUIRY
     OIG received two separate and independent allegations of
plagiarism in proposals submitted by the subject and other
collaborating researchers. In both instances, the source text was -
allegedly a proposal sent to NSF in confidence for merit review.
OIG's inquiry into these allegations indicated that they had
sufficient substance to warrant investigation. Our inquiry also
pointed to the subject, and not any of her collaborators, as the
person responsible for misappropriating the material in question.
OIGis inquiry is summarized in our August 16, 1994 letter to the
university (Tab 1) .
                           page 1 of 5
                     THE UNIVERSITY'S   INVESTIGATION

     When OIG notified the subject's university of the results of
our inquiry, the university asked that we delay our investigation
while it undertook its own. On February 13, 1995, the university's
Vice President for Graduate Studies, Research and Information
Systems transmitted the investigating committee's report, a cover
letter, and a copy of a letter from the university President to the
subject explaining the university's final disposition of the case
to OIG. These materials appear after Tab 2        .'
                                                  OIG has examined
the university's investigation report and believes that it is fair,
accurate, and complete. We therefore recommend ~'hatNSF adopt the
report's factual findings (45 C.F.R. S689.8 (a)).
        O I G ' S CONCLUSION REGARDING MISCONDUCT I N SCIENCE

     The subject on two occasions plagiarized material from
proposals that had been sent to her in confidence by NSF for peer
review by incorporating the material into her proposals without
attribution. Both she and her co-principal investigators agree
that she was solely responsible for doing so.
     NSF1s Regulation on Misconduct in Science and Engineering
defines misconduct in part as a "serious deviation from accepted
practices in proposingf1research. The regulation specifically
mentions only three examples of misconduct, and one of these is
plagiarism. Scientists generally consider plagiarism a serious
violation of professional standards.
     Plagiarism is generally understood to involve using the words
or ideas of another person without giving appropriate credit. In
each instance, over 200 words of text, spanning several paragraphs,
contained plagiarized material. OIG believes that failing to give
credit for this amount of material is a serious deviation from
accepted practice and fits NSFrs definition of misconduct. The
subject's university reached this same conclusion. OIG believes
that NSF should endorse the university's finding.
     NSF's   merit    review   process,    including    its   promise   of

      he University did not send OIG the appendices to its
investigation report because the relevant material in those
appendices was almost all contained in the enclosures accompanying
OIG1s August 16, 1994 letter (Tab 1). The one exception is that
the subject reviewed and misappropriated text from an earlier
version of one proposal than the one OIG originally sent to the
university. In response to a request from the university, OIG
supplied a copy of the relevant portions of the earlier proposal,
annotated to indicate the passages that correspond to the subject's
proposal.   This material, labelled NSF.13 in the university's
investigation report, appears after Tab 3.
                               page 2 of 5
confidentiality for proposals, is widely valued and respected in
the scientific community. The subject submitted two proposals to
NSF that made seriously inappropriate and wholly unauthorized use
of material sent to her for confidential merit review. In doing
so, she violated the integrity of the confidential merit review
process. OIG believes that this action is a serious deviation from
accepted practice and fits NSF's definition of misconduct.
     OIG concludes that a preponderance of the evidence supports
the finding that on two separate occasions the subject incorporated
into her NSF proposals text from proposals written by other
scientists and sent to NSF in confidence for merit review. She did
not receive permission to do so, and she did not credit the
original authors of this material.      She acted knowingly.    OIG
believes that her acts constitute plagiarism, violate the integrity
of NSF1s confidential peer review process, and therefore are a
"serious deviation from accepted practices in proposingu research.
OIG concludes that the subject committed misconduct as defined in
NSF's Regulation on Misconduct in Science and Engineering and
recommends that NSF make a finding to that effect.
                   OIG'S   RECOMMENDED DISPOSITION

     Under §,   689.2 (b) of NSF1s misconduct in science and
engineering regulation, upon making a finding of misconduct, NSF,
in determining what actions it should take, must consider the
seriousness of the misconduct. This includes considering the state
of mind with which the subject committed misconduct and whether the
misconduct "was an isolated event or part of a pattern." We have
explained why the subject's actions are a serious deviation from
accepted practice and hence are misconduct; this section explains
OIG1s recommended actions in light of our assessment of the
seriousness of the subject s misconduct, i .e. , our assessment of
how serious this instance of misconduct is in relation to other
instances.
      OIG believes that the source of the plagiarized material makes
this a very serious case. NSF mails proposals to scientists for
review in confidence and instructs reviewers that NSF "is
responsible for protecting the confidentiality of their contents."
NSF tells reviewers "not to copy, quote, or otherwise use material
from" a proposal received for peer review. Many scientists rely on
NSF1s promise of confidentiality when they choose to discuss new,
undeveloped avenues of research in their proposals. In defiance of
NSF policy, the subject did not merely use such material, but
plagiarized it, and did so on two separate occasions. OIG believes
that the sheer fact of plagiarism from a proposal sent to NSF in
confidence, regardless of the content or originality of the
material that was plagiarized, breaches the integrity of NSF's
confidential merit review process. If tolerated, the subject's
actions would undermine the scientific community's confidence in
NSF' s promise of confidentiality and in the agency' s willingness to
                              page 3 of 5
enforce that promise.     We further believe that the subject's
actions demonstrate that she cannot be trusted to maintain the
confidentiality of the proposals sent to her.         We therefore
recommend that for three years NSF prohibit the subject from
serving as a mail or panql reviewer or as a member of a Committee
of Visitors, since in all of these capacities she would gain access
to proposals that had been sent to NSF in confidence.
     OIG believes that the existence of two separate incidents of
plagiarism also makes this a very serious matter.          Whatever
situational exigencies might mitigate a single instance of
misconduct, the repetition of misconduct cannot be treated lightly
or explained away. During our inquiry we examined only the NSP
proposals reviewed by the subject and those submitted by her; we
did not examine other materials that she either read or wrote.
Therefore, we lack further evidence of a pattern of misconduct. We
are confident only that the subject did not plagiarize from other
NSF proposals sent to her for peer review into her own NSF
proposals.
     The subject0s failure to offer a full and frank explanation of
these incidents also makes this a serious matter.               The
investigating cormnittee noted a number of facts that tend to
attenuate the seriousness of the subject's misconduct. The most
substantial of these, in our view, is that the ideas in the
plagiarized text were not original. But while the plagiarized
material is not original in the sense that it describes the
distinctive contribution of the proposed work, it is also not so
familiar and standardized that the PIS could have omitted the
plagiarized description and incorporated the content by reference.
It involves discussion of the combination of established techniques
that the PIS proposed to employ in carrying out their work. It is
material that PIS would normally work hard to state correctly and
in which readers would expect thoughtful discussion of how the work
would proceed.
     The university president weighed these facts in his
adjudication and concluded that the subject s actions were very
serious, as evidenced by the penalties he imposed on her. He
prohibited her from submitting research proposals of any kind or
accepting research support for projects in which she was the sole
investigator for a one year period. He barred her from engaging in
peer review of any kind for a two year period. He barred her from
receiving support for new graduate students for a one year period.
He froze her salary for a two year period. He issued a written
reprimand and promised immediate dismissal from employment if the
subject engaged in further misconduct.
     OIG believes that NSP should join the university in taking
strong action against the subject's misconduct. The university has
prohibited the subject from submitting research proposals of any
kind or accepting research support for projects in which she is the
                            page   4   of 5
sole investigator for a one year period.     We recommend that NSP
take the following actions:
     (1)   For a period of one year (starting on the date of NSF1s
           final adjudication of this case), NSF should debar the
           subject from 'receiving federal grants or, as an
           alternative, NSF should enter into a voluntary exclusion
           agreement of one year with the subject beginning from the
           date of the institution's final adjudication of the case
           (see 4 5 C.P.R. §620.105(v)). The debarment is a Group
           111 action (see 5 689-2(a)(3)(ii)) .

     (2) For one year after the debarment (or voluntary exclusion)
         concludes, if the subject is a principal or co-principal
         investigator on a proposal submitted to NSF, NSF should
         require the subject to ensure that her department
         chairperson has signed an assurance stating that, on the
         basis of the chairperson8s reading of the proposal and to
         the best of the chairperson's knowledge, the proposal
         does not contain any plagiarized material. This is a
         Group I1 action (see S 689.2 (a)(3)(iii)) .
     (3) For one year after the debarment (orvoluntary exclusion)
         concludes, if the subject is a principal or co-principal
         investigator on a proposal submitted to NSF, NSF should
         require the subject to certify in writing that she has
         recently reviewed the definition of misconduct in NSF' s
         Misconduct in Science and Engineering regulation ( 4 5
         C.F.R. § 689.1(a)), that the proposal is free of any
         misconduct, and that the proposal has been reviewed as
         described above.     This is a Group I1 action (see §
         689.2 (a)(3)(iii)) ,
     (4)   For a period of three years (starting on the same date as
           the university's final adjudication of the case), NSP
           should prohibit the subject from serving as a mail or
           panel reviewer or as a member of a Committee of Visitors.
           This is a Group I11 action (see § 689.2(a)(3)(iii)) .
     (5)   NSF should send the subject a letter of reprimand, which
           is a Group I action (see 5689.2 (a)(1)(i)) .
NSF should require that the subject send the Chairperson's
assurance and her own certification to the Assistant Inspector
General for Oversight in NSF1s Office of Inspector General for
retention in OIG's confidential file on this matter. We believe
these actions adequately protect NSF1s interest in upholding the
integrity of its proposal and award processes and are proportionate
to the seriousness of the subject's misconduct and to the actions
NSF has taken in comparable cases.


                            page 5 of 5
                                    RECITALS

 A.       In November, 1990 and June, 1991,
                                                           --   -   -       .
 University), submitted qrant proposal number               -       -
                                                                        ,   and its
 revision,q
          -I-           entitled ;
                                                -
"-              to the National Science Foundation for funding
 ("Prowosal 1"). In December 1992.         - - - submitted srant        -
               D- 4
 proposal number             entitled          "a                               rn
 the National Science Foundation for funding ("Proposal 2 " ) . Both
 proposals identified                    as a principal or co-
 principal investigator.
 B. NSF's Office of Inspedtor General (OIG) subsequently received
 an allegation that            committed plagiarism and violated
 the confidentiality of the peer review process by copying
 material from proposals which she had received from NSF as a peer
 reviewer. Specifielly, OIG received an alleqation that Proposal


;        OIG also received an allegation
contained materials that had been copied
                                            that Proposal 2
                                            fro
 p r e v i o u s l y submitted to NSF by
 The University informed O I G that it was inv
 allegation.
 C. After investigating the allegation, the University concluded
 that            zopied nearly verbatim 250 words of text in
 Proposal 1 authored by                            which Dr. Sisson
 had received as an NSF peer reviewer. The University also
 concluded that                copied nearly verbatim 225 words of
 text in Proposal 2 from -proposal                     4-v
                                                    (No.
 an earlier version of N0-f-1)              which Dr. Sisson had
 received as an NSF peer reviewer. The University concluded that
            did not indicate the material was taken from these
 other proposals and did not give attribution to the original
 authors.                           j




 D.  O I G then prepared an investigative report ( O I G Case Numbers
 M91020004 and M93010004) on this allegation and concluded that
 both of                proposals contained text copied from the
 original authors' proposals which        ---   had received as an
                                                    .
                                                    .
 NSF peer reviewer. O I G concluded that                had engaged in
 plagiarism and a violation of the confidentiality of the peer
 review system and that such conduct constitutes misconduct in
 science under NSF's misconduct in science and engineering
 regulation.
     E.   NSF has determined that              committed plagiarism and
violated the confidentiality of the peer review process by
copying materials sent to her for peer review into her own NSF
proposals. NSF has determined that'              conduct
constitutes misconduct in science under NSF's misconduct in
science and engineering regulation.
                           AGREEMENT

After careful evaluation,                        and NSF agree to
settle this matter as follows:
1.             agrees to and has voluntarily excluded herself
from receiving federal and non-financial assistance and benefits
under non-procurement and procurement Federal programs and
activities until February 6, 1996.              has not been an
applicant (principal investigator or-co-principalinvestigator)
or among the senior, key, or supervisory personnel on a grant,
contract, or cooperative agreement for scientific, mathematics,
or engineering research o'r education with any agency of the
Executive Branch of the Federal Government through February 6,
1996.
2.  From February 7, 1996 until February 7, 1997, if
is a principal investigator or co-principal investigator on a
proposal submitted to NSF for funding,            will obtain a
signed Assurance form the Department Chairperson stating that, on
the basis the Chairperson's reading of the proposal, the proposal
does not to the best of the Chairperson's knowledgei contain any
plagiarized material. Concomitant with submission of the
proposal, a copy of the Chairperson's Assurance will be sent to
the Assistant Inspector General For Oversight in NSFfs OIG, to be
placed in that Office's file for this matter.
3.  From February 7, 1996 until February 7, 1997, if
is a principal investigator or co-principal investigator on a
proposal submitted to NSF for funding,            will certify in
writing that: (a) she recently reviewed the definition of
misconduct in NSF's misconduct in science and engineering
regulation; (b) to the best of her knowledge, her grant
application is free of any such misconduct; and (c) that her
grant proposal has been reviewed by the Department Chairperson as
required by Paragraph 2 . Concomitant with the submission of the
Proposal, a copy of Certification shall be sent to the Assistant
General for Oversight in NSF's OIG, to be placed in that Office's
file for this matter.
4.                      is prohibited from serving as an NSF peer
reviewer, panelist, or member of a Committee of Visitors until
February 6 , 1998.
5 . NSF will take no further action against            for her
actlons in this matter.
    .6. This agreement constitutes the entire agreement between the
    parties regarding the above-described matter. No modification to
    this Agreement shall be'valid unless written and executed by both
    parties thereto.                 i




    7 . This Agreement terminates and settles this matter, and no
    party may bring legal action regarding this matter except
    concerning breach of this agreement.
    ,8. This Agreement will be null and void if it is not executed by
    the Assistant Director for ~iologicalSciences within ten (10)
    calendar days after the signing of this Agreement by




       warw 2 . ( 3 9 h J                         A       d   z1-( 1996
    Dr. ~ a r pE. Clutter                  Date       '
    ~ssistantDirector for
    Biological Sciences
,   National Science ~oundation
